                                                                NATIONAL SCIENCE FOUNDATION
                                                                 OFFICE OF INSPECTOR GENERAL
                                                                   OFFICE OF INVESTIGATIONS

                                                         CLOSEOUT MEMORANDUM
                                              1   I




     Case Number: 1-09040021                                                                               Page 1 of 1



                             This case was initiated based on a referral that the subject,' a former center director at a
                     university: allowed equipment at the center purchased with funds from an NSF rant^ to be used
                     by a company that the center director had a private interest. The allegation also alleged misuse of
                     grant funds from Department of Defense grants as well as NSF gryts.               .,
                                                                              I   '      c ,




                 ,    -..G   Our preliminary review found that the center director had ;reviously resigned from the.
             ,       center,and the university had initiated aspecial audit to fesolve th'e allegations::,Our review of the - .    .
     +   ..          special audit report found that limited Department of defense fuhds were returned.to the grant by .. .
     , . -           the-university, but NSF funds wereqnot misused. ow ever, equipment purchased under the-NSF           -  ,.-
     .
                                                                                                                              a



         ,
                     grant was used by the private company which disrupted other research at theuniversity. -2
                                                                                                     I

                             The special audit recommended that various university policies be updated, including                  :
                     policies related to Conflict of Interest and outside employment. The university agreed with those
                     recommendations and provided a list of policies that were updated because of this review.

                            Accordingly, this case is closed.




I'                                                                                                                                     I1
 NSF 01G Form 2 (1 1/02)
